<html>
<title> - HEARING ON THE IMPLEMENTATION OF THE UNITED STATES CAPITOL POLICE- LIBRARY OF CONGRESS POLICE MERGER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
   HEARING ON THE IMPLEMENTATION OF THE UNITED STATES CAPITOL POLICE-
                          LIBRARY OF CONGRESS 
                             POLICE MERGER

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, JUNE 27, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

37-024 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             VERNON J. EHLERS, Michigan,
   Vice-Chairwoman                     Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director

                              -------

  HEARING ON THE IMPLEMENTATION OF THE U.S. CAPITOL POLICE-LIBRARY OF 
                         CONGRESS POLICE MERGER

                        WEDNESDAY, JUNE 27, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:36 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] Presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
Alabama, Ehlers, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Teri Morgan, 
Deputy Chief of Staff; Michael Harrison, Professional Staff; 
Matt Pinkus, Professional Staff/Parliamentarian; Kristin 
McCowan, Chief Legislative Clerk; Kristie Muchnok, Professional 
Staff; Fred Hay, Minority General Counsel; and Bryan Dorsey, 
Minority Professional Staff.
    The Chairman. We will now call this hearing to order, and I 
recognize myself. The Ranking Member, who will join us 
momentarily, has given me permission to start without him. I 
recognize myself for 5 minutes for an opening statement.
    As most are aware, more than four years ago Congress 
enacted section 1015 of Public Law 108-7, the Legislative 
Appropriations Act of 2003, providing for a merger of the 
Library of Congress Police into the U.S. Capitol Police. Since 
that time, the agencies involved were charged with the task of 
developing a plan for implementation.
    I am pleased to report that after much prodding from this 
committee in the last six months, the Capitol Police and the 
Library of Congress have finally worked through the issues, and 
just last week finalized their recommendations for implementing 
this long overdue merger. Since the matter clearly falls within 
the authorizing jurisdiction of this committee in the House of 
Representatives, we are eager to review their recommendations 
as the first step toward advancing an appropriate authorizing 
bill through the legislative process.
    Today we will hear the views of the two affected agencies: 
Capitol Police, represented by Chief Phillip Morse; and the 
Library of Congress, represented by the Library's Chief 
Operating Officer Jo Ann Jenkins. We will also hear the 
testimony of the House Sergeant at Arms, Wilson Livingood, a 
security professional who has served on the Capitol Police 
Board, which oversees the Capitol Police, for more than 12 
years.
    Lastly, but certainly not least, are the views of Michael 
Hutchins, the representative of policemen and policewomen who 
will be directly affected by this merger and are in the front 
line protecting this Capitol campus every day.
    Before yielding to the distinguished Ranking Minority 
Member of this committee, the Honorable Vernon Ehlers, I need 
to express that I look forward to working with all of you in 
order to achieve a seamless and fair transition and expect for 
me and my staff to have you and your staff's full cooperation.
    I now recognize the Ranking Member for five minutes for an 
opening statement.
    [The statement of Chairman Brady follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.001
    
    [GRAPHIC] [TIFF OMITTED] 37024A.002
    
    Mr. Ehlers. I thank the gentleman for yielding, and I 
apologize for my delay. I have two markups going on 
simultaneously, so it is not a good day; plus the fact that I 
woke up in a stupor this morning after the late night of votes 
last night.
    I thank the Chairman for his remarks and for calling 
today's hearing on the Library of Congress/Capitol Police 
merger. While bringing together these two organizations may 
seem like an easy proposition on paper, whenever you have two 
entities with existing cultures, established protocols and 
disparate missions, it is important to conduct a merger of 
those two groups thoughtfully and with due diligence. That is 
precisely what we are trying to do today.
    I welcome the opportunity to hear from the Library of 
Congress, the U.S. Capitol Police and others involved in this 
merger as to policies and procedures they have in place that 
will ensure that this union is successful and that it achieves 
the desired objectives of both organizations.
    To that end, there are several areas that I am particularly 
interested in and ask that each of our witnesses from the 
Library and U.S. Capitol Police address these concerns as they 
relate to their respective organizations.
    First, I want to assure all of the parties involved in this 
merger that you have my full support and that of my staff to 
complete your mission. Our goal is to make certain that you 
have the resources and assistance you need to successfully 
integrate your workforces and that we will do everything in our 
power to assist you. In particular, after your initial 
transition plan has been executed and you move into a phase 
where the effectiveness of the merger can be measured and your 
operations adjusted accordingly, we wish to provide a means to 
communicate with the Congress on your progress and impart any 
guidance or resources that your organizations require to 
achieve long-term success.
    Second, there are several areas where I would like to gain 
an understanding of your process as you continue to meld your 
organizations. For instance, how will your integration plans 
take into account the two distinct missions of your 
organizations? While the Library of Congress and U.S. Capitol 
Police both serve and protect the Congress and its assets, they 
do so in very different capacities. I am interested to hear 
from our witnesses today on how both organizations are working 
together to create a new shared vision that will apply the law 
enforcement expertise of the USCP to the unique needs of the 
Library.
    Third, how will we ensure that this merger doesn't 
adversely affect the core mission of either the Library or the 
USCP? The U.S. Capitol Police is primarily charged with 
securing the Capitol buildings, protecting Members of Congress, 
staff and visitors, and providing an emergency planning and 
response function in the event of a terrorist attack or other 
unplanned activity. Its core mission is too important to set 
aside, even in the interest of completing this merger.
    Similarly, the Library has a mission to serve the Congress 
and provide essential materials to enable Members and staff to 
get the information they need to effectively craft legislation 
and perform other essential duties. For example, one very 
important yet incomplete critical undertaking within the 
Library is to conduct an inventory of its collection, not only 
to have an accurate record of what materials are in its 
possession, but also to create a baseline for measurement of 
its inventory control efforts going forward. How will this 
merger impact the timeline for completion of this inventory?
    This and other important work within the Library must be 
completed in spite of the effort required to unite these two 
law enforcement bodies.
    I ask that our witnesses today provide this panel with the 
update on the effect of this merger on executing their core 
operations, and, if there is an impact, how that might be 
mitigated.
    Finally, I would like to get a sense from both of these 
organizations on how they plan to handle jurisdictional issues. 
For example, who will determine the number of officers deployed 
to a specific area of the Library; the U.S. Capitol Police, who 
are experts in proportional response, or the Library of 
Congress staff who have an innate understanding of the Library 
and its inner workings?
    Arguments can and likely will be made on both sides that 
their will should prevail. We must ensure that a hierarchy is 
in place to prevent such a breakdown in the chain of command 
before one occurs.
    Again, I thank our witnesses for the time today, and I look 
forward to receiving the testimony on this important effort, 
and I hope my obligations on the other two committees don't 
keep me away from this hearing too long. Thank you very much.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.003
    
    [GRAPHIC] [TIFF OMITTED] 37024A.004
    
    [GRAPHIC] [TIFF OMITTED] 37024A.005
    
    [GRAPHIC] [TIFF OMITTED] 37024A.006
    
    [GRAPHIC] [TIFF OMITTED] 37024A.007
    
    The Chairman. Are there any other opening statements? 
Before beginning, the committee received testimony yesterday 
from the Inspector General of the Library of Congress. Without 
objection, I submit this testimony for the record.
    [The statement of Mr. Schornagel follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.008
    
    [GRAPHIC] [TIFF OMITTED] 37024A.009
    
    [GRAPHIC] [TIFF OMITTED] 37024A.010
    
    The Chairman. I welcome the members of the panel and ask 
that they summarize their statements within the initial five 
minutes, and without objection, the written statements from 
witnesses will appear in the record of the hearing.
    We will begin with the Sergeant at Arms, The Honorable 
Wilson Livingood; and then move on to Chief Phillip D. Morse, 
Sr., Chief of Police, U.S. Capitol Police; and then Ms. Jo Ann 
Jenkins, Chief Operating Officer, Library of Congress; and 
lastly, Mr. Michael Hutchins, Chairman of the Fraternal Order 
of Police, Library of Congress Labor Committee.
    Before we start, I want you to know that my dad was a 
police officer, so my heart, mind, body, and soul are on your 
side every step of the way. I do understand and respect the job 
that you do every single day. When there is a problem, we run 
out and you guys are running in. So you are among a lot of 
friends. I appreciate the job you do to keep all of us and our 
families safe every single day that you are here.

  STATEMENTS OF HON. WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. 
HOUSE OF REPRESENTATIVES; CHIEF PHILIP D. MORSE, SR., CHIEF OF 
POLICE, UNITED STATES CAPITOL POLICE; JO ANN C. JENKINS, CHIEF 
   OPERATING OFFICER, LIBRARY OF CONGRESS; MICHAEL HUTCHINS, 
 CHAIRMAN, THE FRATERNAL ORDER OF POLICE, LIBRARY OF CONGRESS 
                        LABOR COMMITTEE

    The Chairman. Sergeant at Arms, you are on.

                 STATEMENT OF WILSON LIVINGOOD

    Mr. Livingood. Thank you, Mr. Chairman, for those comments, 
and good morning. Mr. Chairman, Mr. Ehlers, and distinguished 
members of the committee, I am honored to appear before you 
today to discuss the merger of police operations between the 
U.S. Capitol Police and the Library of Congress Police. Before 
I begin, I want to thank the members of this committee for 
their steadfast and unwavering support of the men and women of 
the United States Capitol Police all the time. You have helped 
make it one of the finest law enforcement organizations in our 
Nation, and we will continue to strive to be the best.
    As I begin this morning, I believe it would be helpful to 
provide some background concerning the merger of the policing 
and security operations of the Capitol Police and the Library 
of Congress Police. When the merger was first considered, there 
was general and widespread agreement among virtually all of the 
affected groups that the underlying concept of a coordinated 
integration of police and security elements relating to the 
legislative branch was advantageous. There was an essential 
measure of institutional efficiency and effectiveness of 
security.
    The lessons we learned from 9/11, the anthrax attacks on 
the Congress, and Hurricane Katrina all pointed in one 
direction; and that is an integrated and coordinated 
communications and operations structure with clear lines of 
authority, that is absolutely critical to an effective 
emergency response effort.
    The anticipated merger is designed to aid the congressional 
community in that objective. All have agreed with the concept 
of a merger between the Capitol Police and the Library of 
Congress Police and the resulting benefits. Everyone also 
recognized there were many challenges involved. These range 
from operational and legal considerations, as well as employee 
protection considerations.
    With these thoughts in mind, the Capitol Police Board and 
the Capitol Police have constantly maintained that the merger 
must address these issues and be accomplished in a systematic, 
thoughtful, and appropriate manner.
    Unquestionably, there will be operational and 
administrative details that will require ongoing adjustments. 
However, from the policing and security perspective, any final 
legislative enactment, I believe, should provide clarity of the 
role, responsibilities, and expectations of all involved 
entities. It should grant the United States Capitol Police the 
unfettered ability and statutory authority to appropriately 
carry out the traditional mission of law enforcement and 
congressional security.
    Moreover, it is essential that the merger process provide 
the Capitol Police with adequate resources and a well-defined 
responsibility so that the Capitol Police are in a position to 
successfully carry out its fundamental operational mission of 
protecting the core functions of the legislative process.
    There are some items that are not covered by current 
proposed legislation. We are looking forward to working with 
the committee and staff to rectify the remaining issues 
regarding law enforcement authority.
    After hearing from other witnesses who intend to present 
opening statements, I will be more than happy to respond to any 
questions you might have regarding this important issue.
    Mr. Chairman, in closing I want to thank the committee for 
the opportunity to appear before you today.
    The Chairman. Thank you. And you are welcome.
    [The statement of Mr. Livingood follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.011
    
    [GRAPHIC] [TIFF OMITTED] 37024A.012
    
    The Chairman. Chief Phillip D. Morse.

                 STATEMENT OF PHILLIP D. MORSE

    Mr. Morse. Mr. Chairman and members of the committee, thank 
you for the opportunity to appear before the committee on House 
Administration today to discuss the status of the merger of the 
Library of Congress Police into the United States Capitol 
Police.
    The United States Capitol Police maintains the honor of 
protecting the Congress, its legislative process, as well as 
staff and visitors to the Capitol complex. We protect and 
secure Congress so it can fulfill its constitutional 
responsibilities in a safe and open environment. As the 
foremost symbol of American representative democracy, 
congressional operations are a highly visible target for 
individuals and organizations intent on causing harm to the 
United States and disrupting the legislative process of our 
government.
    In 2003 the Congress provided for the transfer of the 
personnel and functions of the Library of Congress Police to 
the United States Capitol Police with the intention of creating 
a cohesive, unified law enforcement and security operation. At 
the direction of the Congress, U.S. Capitol Police undertook 
the development of a comprehensive implementation plan which 
identified how two organizations would be merged together, as 
well as identifying potential legislative, personnel and fiscal 
issues requiring resolution before the overall transfer would 
occur. This implementation plan served as a guidance and 
direction for the U.S. Capitol Police in implementing those 
components of the merger which were within the authorization 
and jurisdiction of the U.S. Capitol Police and did not require 
legislative resolution.
    Over the subsequent years, the U.S. Capitol Police has 
worked closely with the Library of Congress through a 
memorandum of understanding to provide daily operational 
oversight and direction for the Library of Congress Police. 
Additionally, the U.S. Capitol Police has implemented a 
dedicated division within the operational components of the 
department to provide for security of the Library of Congress 
as part of the Capitol complex. A U.S. Capitol Police Inspector 
heads the division and it is comprised of the remaining Library 
of Congress police officers as well as U.S. Capitol Police 
officers and officials.
    To accomplish the mission of protecting the Capitol 
complex, inclusive of the Library of Congress, the U.S. Capitol 
Police is committed to continuing to work diligently to effect 
the merger of the Library of Congress Police into the 
department in order to achieve the intent of Congress for a 
seamless law enforcement and security operation with a unified 
command and control.
    With the help of Congress and the Capitol Police Board, the 
department will ensure that appropriate planning and resources 
are in place to achieve a successful transfer of law 
enforcement and security responsibilities, provide for a 
reasonable outcome for the Library of Congress employees 
involved in the merger, and provide for clear delineation of 
roles and responsibility for the security of the Library of 
Congress collections.
    As chief of the Capitol Police I take great pride in the 
many years of service this department has provided to Congress. 
Building on that legacy, we, the United States Capitol Police, 
look forward to continuing to safeguard Congress, staff, and 
visitors to the Capitol complex during these challenging times. 
In addition, we look forward to working with Congress, and 
particularly this committee, to effect the successful transfer 
of the Library of Congress Police in order to achieve the 
congressional vision of a unified law enforcement and security 
operation for the Capitol complex.
    I would like to take this opportunity to thank Dr. 
Billington for his support, and commend Jo Ann Jenkins and her 
staff for their full cooperation and guidance that has been 
invaluable in making this merger proposal successful. I thank 
you for the opportunity to appear here today and for your 
continued support for the men and women of the U.S. Capitol 
Police.
    I request that the full text of my testimony be entered 
into the record, and I am ready to address any questions you 
may have. Thank you.
    The Chairman. Without objection, it will be entered in the 
record. Thank you, Chief.
    [The statement of Mr. Morse follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.013
    
    [GRAPHIC] [TIFF OMITTED] 37024A.014
    
    [GRAPHIC] [TIFF OMITTED] 37024A.015
    
    [GRAPHIC] [TIFF OMITTED] 37024A.016
    
    [GRAPHIC] [TIFF OMITTED] 37024A.017
    
    [GRAPHIC] [TIFF OMITTED] 37024A.018
    
    The Chairman. Ms. Jo Ann C. Jenkins.

                 STATEMENT OF JO ANN C. JENKINS

    Ms. Jenkins. Mr. Chairman, Ranking Member Ehlers, members 
of the committee. I appreciate the opportunity to appear before 
you today to discuss the police merger of the Library of 
Congress and the U.S. Capitol Police. It has been a long time, 
but the Library of Congress and the Capitol Police are in 
agreement to complete the police merger and to achieve the goal 
of Congress for seamless security on Capitol Hill. We believe 
the draft legislation before this committee will complete the 
task that Congress began formally in 2003.
    Dr. Billington and I have forged a productive and collegial 
working relationship with Capitol Police Chief Morse, and the 
assistant chief, and we thank them for the understanding of our 
unique institutional needs as we gained a better appreciation 
for their central goal in providing security throughout the 
Capitol complex.
    I also want to thank publicly Capitol Police Inspector Tom 
Reynolds and Inspector Fred Rogers and the many Capitol Police 
assigned to the Library of Congress for their dedication in 
working with us to operate an effective combined police force 
over the last several years.
    The Library of Congress is forever grateful to the 
outstanding officers of the Library's police force for their 
professionalism and devotion to duty.
    A merger between the Library and Capitol Police force has 
been under discussion for some 20 years now. In 1987 Congress 
approved legislation mandating pay comparability between the 
Library Police and the Capitol Police and in 1990 directed the 
two forces to begin studying a merger. During this time the 
Library instituted a number of measures to strengthen security 
of its collections by integrating and updating physical 
security, preservation, and inventory management controls while 
further defining the central role of the Library Police for 
collections security.
    The Library also collaborated closely with the Capitol 
Police and the Architect of the Capitol in installing physical 
security enhancements, which were a part of the overall Capitol 
complex security improvements, such as the new police command 
center, intrusion detection systems, vehicle barriers, 
screening equipment, and security video cameras.
    Once the Congress set a merger in motion in 2003, our goal 
has been to integrate the two forces in a way that enhances 
overall security, maintains the historic statutory role of the 
Librarian of Congress to safeguard the Library's staff, 
visitors, and the priceless collections and provides maximum 
fairness for our police officers by ensuring no one is harmed 
by this merger.
    We believe this legislation achieves these goals and 
provides for a period of orderly transition, culminating in a 
completed merger by the end of fiscal year 2009. The Library of 
Congress supports the police merger legislation now before this 
committee and respectfully requests its approval.
    Mr. Chairman, this concludes my statement and I would be 
happy to answer any questions you or other members of the 
committee may have. And I also ask that a statement by the 
Librarian and my longer statement appear in the record.
    The Chairman. Without objection. Thank you.
    [The statement of Ms. Jenkins follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.019
    
    [GRAPHIC] [TIFF OMITTED] 37024A.020
    
    [GRAPHIC] [TIFF OMITTED] 37024A.021
    
    [GRAPHIC] [TIFF OMITTED] 37024A.022
    
    The Chairman. Officer Michael Hutchins.

                 STATEMENT OF MICHAEL HUTCHINS

    Mr. Hutchins. Mr. Chairman, members of the committee, good 
afternoon. I am Officer Michael G. Hutchins, Private First 
Class, a 31-year employee of the Library of Congress and 
Chairman of the Fraternal Order of Police, Library of Congress 
Labor Committee. I represent the remaining 82 police officers 
and technicians in the bargaining unit of the Library of 
Congress Police. Thank you for allowing me to appear before the 
committee to express our concerns regarding the proposed merge 
of the Library of Congress Police with the United States 
Capitol Police. Our full testimony has been submitted for the 
record.
    From the inception of the idea of a merger, our members 
were somewhat elated that finally a seamless security was being 
established with us--emphasis on us--included to contract our 
talent, experience and attention to duty in securing the 
Capitol Hill complex. We were all disgraced when it was 
realized that somewhere in the process considerations were not 
given that a grandfather clause be entertained that would have 
kept all officers employed in their chosen profession. This 
would have mitigated for the loyal and dedicated officers that 
pride themselves on tenure and duty, who desire longevity in 
their position as police officers.
    Very disheartening is the distance and disconnection from 
us by the Chief of the Capitol Police and the Capitol Police 
Board. We think it is reasonable to have knowledge as to what 
is expected to successfully transition to this agency.
    Our members do want the merge of the two departments to 
become a reality, but we desire that it occur in the true sense 
of the definition of a merge. We deserve to have this 
accomplished in the most fair and equitable manner possible so 
that all Library of Congress Police Officers will be afforded 
the opportunity to transition into the United States Capitol 
Police and be allowed to continue to serve as police officers 
until such time as they are entitled to an unreduced annuity.
    As a result of the extensive delay of the proposed merger, 
our careers have been placed in a state of suspense. There has 
been no opportunity for lateral or upward mobility like that 
realized by our combined law enforcement partners that we work 
united with daily. Even small items such as attending to the 
statutory law and the issuance of the same weapons and 
equipment is stagnant, also showing no true urgency to attain 
seamless security.
    In closing, we confirm that we desire a merger to occur. It 
is a logical and practical goal. However, again we emphasize 
the hope that it would be accomplished in a fair and equitable 
manner resulting in the following:
    Number one, that all officers that meet the United States 
Capitol Police age and years of service requirement be 
laterally transferred into the United States Capitol Police, 
their complete system. This will make the Library of Congress 
Police whole and without loss of time or status.
    Number two, all remaining officers, regardless of age or 
tenure, be retained in their positions as police officers. This 
can be brought about by whatever your expertise deems possible.
    Again, we emphasize that these dedicated men and women 
deserve the opportunity to work the required time in order to 
realize an unreduced annuity for their services rendered to the 
United States Government. We sincerely believe that the 
completion of this process within a reasonable period and in a 
fair and equitable manner will obtain the desired result of the 
seamless security sought throughout the Capitol Hill complex. 
With your help and expertise, this can become a reality.
    Thank you for your attention to this matter and the time 
you have allowed us today.
    [The statement of Mr. Hutchins follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.023
    
    [GRAPHIC] [TIFF OMITTED] 37024A.024
    
    [GRAPHIC] [TIFF OMITTED] 37024A.025
    
    [GRAPHIC] [TIFF OMITTED] 37024A.026
    
    [GRAPHIC] [TIFF OMITTED] 37024A.027
    
    The Chairman. Thank you, Officer. I just have a couple of 
real quick questions, and then I will let others who have 
questions go. Officer Hutchins, everybody seems to be in accord 
with this merger. I spoke with you, and we are going to try to 
address it in the best way we can, but they talked about 
grandfathering people in. How many people would not be 
grandfathered in under the present merger?
    Mr. Hutchins. Under the present proposal we received, 21 
people would not be afforded the opportunity to continue in 
their career as a police officer, and of the 61 that would----
    The Chairman. Please turn your mike on.
    Mr. Hutchins. I apologize. Under the current proposal, 21 
officers will not be able to transition to the United States 
Capitol Police as police officers. They would be under the 
proposal for the civilian positions. Of the 61 remaining 
officers, several of them because of their age and tenure, 
wouldn't be around much longer, maybe a year or two or what 
have you. I don't have the exact numbers.
    The reason we took the grandfather clause was because of 
the fact that conditions that we were under prior to 
legislation being passed we felt warranted some exemption to 
this. We have an established retirement system that, to my 
knowledge, they would continue to fund it, we could become 
Capitol Police Officers. Under that particular retirement 
system, the Capitol Police would be under their retirement 
system. Somewhat like the Metropolitan Police which has two or 
three different retirement systems in that agency.
    The Chairman. You first said the first group of 21 that 
would not be able to continue, would not be because of age, so 
what would it be a result of?
    Mr. Hutchins. Actually, most of the officers, not all of 
the 21, would not be able to attain 20 years of service before 
they reach the age of 60. So 60 is the drop-off number for 
Capitol Police.
    The Chairman. Because they started later?
    Mr. Hutchins. Yes, sir. Also, some of them will have 
already reached the age and have enough time to actually get an 
unreduced annuity.
    The Chairman. Okay. I understand the pay is not the issue 
because we don't really do the pay, that is subject to another 
committee, and the pension can be a problem, and age is a 
problem.
    I guess, Chief, talking about training, would there be a 
problem with the new people coming in and would they have to do 
some extra training to come up to a standard different than the 
Library of Congress as Capitol Police Officers?
    Mr. Morse. Once they became Capitol Police officers, we 
also go through 10 weeks of training for the functions that we 
do as Capitol Police officers, they would need to attend the 10 
weeks of Capitol Police training.
    The Chairman. I understand that you are trying to look at 
it from this point as a two year process. Hopefully if we can 
resolve this and come to some agreements with the Capitol and 
the Library Police, that could it happen sooner. If you are 
talking about 10 weeks for training, that is less than 2 years.
    Mr. Morse. There are other things involved in the 
transition. For instance--and I believe Mr. Ehlers had 
mentioned concepts of operations and integrating those. In the 
first year we are looking at administrative policy, operational 
policy, assets, resources, identifying those, ensuring that 
they are in place.
    The second year is really evaluating the employees, placing 
the employees, training the employees, preparing the employees 
for the duties and responsibilities of the U.S. Capitol Police. 
The timeline is very specific, and it is a two-year process.
    The Chairman. One real quick question. The Capitol Police, 
do they retrain as they go, after so many years? Do they get 
regular physicals or anything like that?
    Mr. Morse. Regarding training, training is ongoing, both 
mandatory and in service. There is also experienced officer 
training that we put our officers through routinely. As far as 
a physical, no.
    The Chairman. The only thought is when I first came here 
nine years ago, I was in a different size suit myself, and I 
thought maybe a little disadvantage for the Library Police to 
get new physicals and the Capitol Police don't have to. I don't 
want to see injustice done to them. But we do want to have fit 
police officers out there, even though we may not have fit 
Congressmen.
    I just wanted to know what would happen. I thank you. I 
yield to the Ranking Member Mr. Ehlers for any questions.
    Mr. Ehlers. Thank you, Mr. Chairman. Your comments make me 
wonder if perhaps we need a job retraining program for 
Congressmen after a few years on the job.
    I note that your proposed legislative language was adopted 
by the Senate Legislative Branch Appropriations Subcommittee. I 
am curious: Have they done a detailed cost analysis or have you 
worked out a detailed cost analysis at this point?
    Mr. Morse. Within the past few years there have been 
analyses done on costs. For instance, in the area of employee 
transfer salary and benefits, salary and benefits of new police 
officers, overtime salaries and benefits, general expenses--
there is certainly not a precise cost, because we would have to 
wait for legislation to be approved for certain things to 
occur.
    The only remaining costs that we can't be specific on right 
now are the physical security implementation costs, because 
that requires an assessment to see if the USCP and Library 
systems can be integrated without any issues.
    But we do have a cost analysis in those areas that I 
stated, and I can submit those to you for review if you would 
like.
    Mr. Ehlers. We would appreciate that.
    Ms. Jenkins, do you have anything to add?
    Ms. Jenkins. No, sir. I would just say that we have been 
working closely with the Capitol Police and we are trying to 
maximize the resources that we would transfer to the Capitol 
Police, and feel comfortable with the estimate they have come 
up with.
    Mr. Ehlers. Thank you. I do want to commend both of you. I 
know this has been a very long process. In fact, I at one point 
decided it would probably not be done before I die or retire. 
You proved me wrong. I appreciate the dedicated purpose that 
both organizations, particularly both of you, have put into 
resolving the many, many questions.
    I have another question. Well, I can't specify it exactly, 
but the drafts of legislation forwarded to us leaves several 
matters to be resolved through future negotiations between the 
Library and the Capitol Police. Can you describe how you can go 
about resolving these matters? These aren't deal stoppers, are 
they?
    Mr. Morse. We don't believe that they are deal stoppers but 
there are areas that require some further analysis. And the 
issues that we addressed here to get to the point we are now at 
may have brought to our attention things that we didn't think 
about and that we have to ensure are absolutely correct. But 
none of those issues are deal stoppers, and we look forward to 
continuing the relationship we have and completing the merger.
    Mr. Ehlers. So both of you are confident you will be able 
to resolve these issues in a timely fashion.
    Ms. Jenkins. Yes.
    Mr. Ehlers. Good. Thank you.
    Another question is the role of the inspector general, 
particularly in oversight investigations, but also 
investigations of any thefts, crimes and improprieties. The 
Library has its inspector general and the Capitol Police has 
their inspector general. Who is really going to be in charge of 
those investigations in the Library?
    Mr. Morse. We both can answer this. Certainly there may be 
some change, but the way I always look at the merger and any 
Capitol Police operation that we transition somewhere else is 
that it should mirror what we currently have, and so I would 
say that the Capitol Police inspector general would continue to 
do the things that he does with the Capitol Police employees 
and that the inspector general of the Library would continue to 
do his responsibilities, perhaps with some more clarification, 
so that there is no overlap in their responsibilities; i.e., 
criminal investigations of our employees and things like that. 
I think that can be easily corrected.
    Mr. Ehlers. As long as they don't start investigating each 
other.
    Another question: What is the role of the Capitol Police 
Board in determining regulations governing physical security in 
the Library of Congress? Perhaps Mr. Livingood?
    Mr. Livingood. Currently the Library has its own physical 
securities section, and after the merger the Capitol Police are 
going to be doing a survey to see what equipment they now have 
and to find out if this technology they have can be integrated 
into our system. Once that is finished, we are going to be 
discussing should the physical security remain with the Library 
of Congress responsibility or should it be transferred to the 
U.S. Capitol Police. If it is transferred to the Capitol 
Police, we would receive input from the Library, what they 
would need from the Library and the Librarian. And in matters 
of priorities--a lot of times the Capitol Police Board is asked 
to come up by the committees, what is the priority--we would, 
working with the Library, come up with a list of priorities 
both for here and for the Library.
    Mr. Ehlers. Last question. The Librarian is allowed to 
determine policy and procedures for physical security and 
collection security that the Capitol Police is expected to 
enforce. Doesn't this in some way make an overlapping 
responsibility with the current Police Board?
    Mr. Morse. Just as we do with the Committee on House 
administration, and the Senate Rules Committee, the Librarian 
would maintain the oversight of rules and regulations within 
the building, and certainly because of the security of the 
collections, and the focus of the Librarian, that he would have 
oversight in how those things were protected.
    Once again, the Capitol Police would submit its expert 
opinion, recommendations, to ensure the safety not only of the 
collections but the people in the complex, and we would hope to 
come to the same resolutions we have with all these other 
issues that we are addressing. I don't see any issue. It is a 
matter of us managing the police functions in order to protect.
    Mr. Ehlers. Once again I want to thank you and commend you 
for the progress you have made on this. It is not an easy task. 
I have been in negotiations of this type before and I am 
pleased you have reached this agreement and hope the rest is 
good as well.
    Thank you. I yield back.
    The Chairman. Thank you. Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I want to follow up on your 
comments and ask Officer Hutchins, is it fair to say that the 
bumps left in the road mostly revolve around the 21 people that 
you mentioned that may not be able to continue their careers as 
they had planned?
    Mr. Hutchins. Not continue their careers as police 
officers, sir. Here again, their heart is there. As Chairman 
Brady spoke of, he was a police officer and it doesn't go away.
    Mr. Capuano. Is it fair to say that most of the bumps that 
remain in this agreement mostly revolve around concerns of 
those 21; is that a fair representation or not?
    Mr. Hutchins. That is fair; yes, sir.
    Mr. Capuano. What I would like at some point is I would 
like maybe some written commentary on the specific concerns of 
these 21 people: What is it that is stopping them? Is it age, 
physical condition, whatever it is; because I am sure that we 
would like a breakdown, but individually. My guess is there are 
several different reasons that apply to different people and I 
would be curious myself to find out what issues you identify as 
specific to the individuals.
    Not now but at some later point.
    Mr. Hutchins. Yes, sir; we will get that to you as soon as 
possible.
    Mr. Capuano. Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman from California, Mr. 
Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I 
appreciate all the work that you folks have done on this, but 
according to my observations from when I was Attorney General 
of California, this seems to be making it far more complicated 
than it ought to be. We had a merger of State Police with the 
CHP in California. We had in my own district establishment of 
the Citrus Heights Police Department breaking away from the 
County of Sacramento Sheriff. We managed 25 or 35 joint task 
forces around California, led by the Department of Justice.
    Man, in 2003 the decision was made to do this; we are now 
in 2007; now you are telling us if we are lucky, by the end of 
2009 we will have the merger accomplished. What are we doing? I 
mean are we reinventing law enforcement as we know it in the 
modern era?
    Chief, I am perplexed that it sounds so complicated. You 
have got good men and women, good supervision, and you have the 
standards set. Why does it take 2 years, if we are lucky?
    Mr. Morse. I agree with you.
    Mr. Lungren. No one else does. Four people say maybe we 
will get there, but we have got all these problems.
    Mr. Morse. I have been chief since October 30, 2006 and in 
the last 3 months we have come to resolution on issues that 
have been around since 2003. One of the things that I found has 
made this very successful is reaching out to the Library of 
Congress, face to face, and discussing the issues frankly and 
coming to resolution.
    So I have proceeded very quickly with this. The Library has 
assisted with that. And with what I inherited I think that 2 
years to resolve it is certainly long overall, but for what I 
was given to resolve, I think a 2-year timeframe is good.
    Mr. Lungren. So how many sworn officers do you have now, 
1,900 or something like that?
    Mr. Morse. 1,671 is our authorized strength.
    Mr. Lungren. And we are going to add 83, as I recall.
    Mr. Morse. The Library of Congress police authorized FTE is 
148.
    Mr. Lungren. I am talking about real live people. How many 
real live people, sworn officers, do we have now? We heard from 
Officer Hutchins that 21 are not going to be eligible. We are 
talking about the eligibles.
    Ms. Jenkins. We have 99 officers on the Library of 
Congress' payroll now who are not U.S. Capitol Police officers.
    Mr. Lungren. Sworn officers, 99. Do you agree with Officer 
Hutchins there are 21 now that would not be eligible to 
transfer in?
    Ms. Jenkins. According to our Human Resources, we have 23 
officers who would not transfer as Capitol Police officers but 
they would transfer as Capitol Police civilian staff.
    Mr. Lungren. So we are talking about, if that scenario 
remained, we would add 76 officers to 671 officers--no, 1,671 
officers, right?
    Mr. Morse. Yes, sir.
    Mr. Lungren. Officer Hutchins, how old are the oldest 
officers who are, quote-unquote, ineligible right now under 
this scenario that has been presented here?
    Mr. Hutchins. Sir, the age in question is 57. Capitol 
Police, you cannot come on board after you have obtained your 
37th birthday, and 57 is the cutoff. In order to get the other 
3 years they extend to you, you must submit written 
documentation.
    Mr. Lungren. I guess my question is what is the age limit 
of officers?
    Mr. Hutchins. Presently at the Library there is none, as 
long as we successfully pass the physical.
    Mr. Lungren. So how old are the oldest officers?
    Mr. Hutchins. We have some guys that retire from 
Metropolitan that came on board maybe in their fifties.
    Mr. Lungren. How old would they be now?
    Mr. Hutchins. Our oldest, I think we come up to 2020 where 
we would have to keep people on board if they retired in the 
system we are now.
    Mr. Lungren. That is not my question. The question is the 
age.
    Ms. Jenkins. The range of the officers are from their late 
twenties, up to early seventies.
    Mr. Lungren. Mr. Livingood, you have been involved in this 
for some period of time. Any reason why we can't accelerate 
this?
    Mr. Livingood. I think that we have come an awful long ways 
and it has taken a long period, but as Chief Morse said, in the 
recent 6 months they have come an awful long ways. I think that 
now that we are ready, it appears to be a finalization of this. 
I think you have to have--you couldn't do it tomorrow. It would 
be sometime after a merger has been signed. It has not been 
signed yet.
    Mr. Lungren. Didn't we start Iraq in 2003?
    Mr. Livingood. That is what I say. Yes, sir.
    Mr. Lungren. I am saying Iraq. Didn't we start Iraq in 
2003?
    Mr. Livingood. Around there, yes.
    Mr. Lungren. We have got people telling us we have been 
there too long. That was a pretty big assignment.
    Mr. Livingood. I think it is a different issue, but I 
understand what your point is.
    Mr. Lungren. Yield back.
    The Chairman. Thank the gentleman. Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman. If I can just follow 
up with Jo Ann, how many officers do we have in the Library of 
Congress--because you said 23, the officer said 21. Is the real 
number 23?
    Ms. Jenkins. Yes, sir.
    Mr. McCarthy. Is it my understanding that those sworn 
officers on the transfer over would be civilian employees and 
be under CRS or FERS retirement system, just as the Library of 
Congress police officers are today. Is that right?
    Ms. Jenkins. My understanding is that the way the 
legislation is written now, if it were passed as it is, the 
officers would be under the Library of Congress retirement 
system for the period of time they were Library of Congress 
employees and they would be under the Capitol Police retirement 
system for the number of years they were under that system.
    Mr. McCarthy. How many officers in the Library of Congress 
are over the age of 60?
    Ms. Jenkins. I would have to get Human Resources to run the 
numbers.
    Mr. McCarthy. Do we have a guess? Because you gave me a 
range from the twenties to the seventies. How old is the oldest 
officer?
    Ms. Jenkins. I'm sorry. The Human Resources is telling me 
the oldest officer is 66, and there are 10 of them.
    Mr. McCarthy. Ten of them over 60?
    Ms. Jenkins. Yes, sir.
    Mr. McCarthy. Now I'm confused because you told me in the 
seventies.
    Ms. Jenkins. I misspoke. The oldest officer is 66. By the 
time the police merger goes through.
    Mr. McCarthy. I have had information that someone once told 
me we had an officer that was 80 years old. Could we have the 
Human Resource person follow up?
    Let me move to Police Chief Morse. Your June 14 memo I have 
here, and I guess this memo is not signed off on, you state in 
fiscal year 2008 you require an additional 450,000 to conduct 
necessary studies in preparation for the integration of the 
Library of Congress security and information system. Additional 
resources will be required in fiscal year 2009 to achieve the 
full merger.
    Will you elaborate what that would be for?
    Mr. Morse. That is for the physical security assessment 
integration, and that would yield us answers as to the total 
amount it would take to make that integration happen. So in 
2009 we would be requesting money to make that integration 
happen if we thought it was----
    Mr. McCarthy. I'm a freshman so you will have to walk me 
through this. This evaluation of Library of Congress officers, 
you are going to evaluate them or evaluate the system of how 
you are merging it?
    Mr. Morse. The physical security systems, alarms, camera 
systems.
    Mr. McCarthy. Is that going to be contracted out?
    Mr. Morse. Yes.
    Mr. McCarthy. So this 450, you have some estimates out 
there or is this a guess?
    Mr. Morse. We have some rough estimates.
    Mr. McCarthy. So could come higher, could come lower.
    Mr. Morse. Right.
    Mr. McCarthy. I just want to finish up with, if I can ask 
Jo Ann, Mr. Chairman, I think we have some numbers here that 
are quite different than what other information has been 
provided. I think the committee needs some follow-up especially 
between the 21, 23, and the ages. If we can get a list of all 
the officers of the Library of Congress, their ages, and how 
long they have been on the force, that would be helpful to this 
committee.
    With that, I will yield my time.
    Mr. Lungren. Will the gentleman yield.
    Mr. McCarthy. I yield to Mr. Lungren.
    Mr. Lungren. Mr. Chairman, the reason I am a little upset 
is I had my staff talk to people at the Library of Congress 
yesterday. We got a certain number. Our staff had gotten a 
number earlier. Now we get a different number now. It is not 
the question of the number but, frankly, I don't appreciate 
getting three different types of information from the Library 
of Congress about the way they are running things. To me, that 
shows disrespect for this committee that is supposed to have 
jurisdiction over the Library of Congress and, frankly, I don't 
appreciate getting three different numbers and getting an 
entirely different number here.
    As I prepared for this hearing, I based it on information 
that we received, and if we are going to take the time to ask, 
I expect to get an honest answer, and I don't appreciate any 
different answer.
    This committee has jurisdiction over this, and frankly 
those that are under the jurisdiction of this committee ought 
to understand when we ask them questions, we expect a straight 
answer, not three different answers in 3 different days.
    I thank the gentleman for the time.
    Mr. McCarthy. I yield back to the Chairman.
    The Chairman. Thank you. I do agree with you. We ought to 
get the list of officers at the Library of Congress, with their 
ages, and also get a list of these civilians and how they 
become civilian officers; what is the effect of their pensions; 
what is the effect of their longevity. I think we need this 
information to us on the committee as soon as possible so we 
can intelligently move forward and we have something on paper 
that everybody agrees to, and I hope that will satisfy the 
members on our committee.
    Does anybody have anything else? If you can get that to us 
as quickly as possible because we want to get this merger done. 
We want to work it out. We don't want anyone to lose their 
jobs. That is part of the reason we are asking questions, 
because we want to make sure we protect those people. We don't 
want them to lose their benefits, we want to make sure they are 
made whole.
    I think we can do that by working together, everybody 
working together in unison to get a fair merger, which is what 
I understood and heard both sides would want to happen. We may 
have to do our due diligence and for myself--and I think I can 
speak for everybody on this committee--I know they are 
interested in trying to get this done. Anything we can do to be 
helpful to bring this to a complete closure so everybody is 
happy and on the same page, we would like to do that.
    Again, hearing no other questions--would anybody like to 
say anything else--this hearing is adjourned.
    [Whereupon, at 12:27 p.m., the committee was adjourned.]
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 37024A.030
    
    [GRAPHIC] [TIFF OMITTED] 37024A.031
    
    [GRAPHIC] [TIFF OMITTED] 37024A.032
    
    [GRAPHIC] [TIFF OMITTED] 37024A.033
    
    [GRAPHIC] [TIFF OMITTED] 37024A.034
    
    [GRAPHIC] [TIFF OMITTED] 37024A.035
    
    [GRAPHIC] [TIFF OMITTED] 37024A.036
    
    [GRAPHIC] [TIFF OMITTED] 37024A.037
    
    [GRAPHIC] [TIFF OMITTED] 37024A.038
    
    [GRAPHIC] [TIFF OMITTED] 37024A.039
    
    [GRAPHIC] [TIFF OMITTED] 37024A.040
    

</pre></body></html>
